                                                    NATIONAL SCIENCE FOUNDATION
                                                     OFFICE OF INSPECTOR GENERAL
                                                       OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

Case Number: 1-12-05-0023                                                                        Page 1 of 1




                We received an allegation that an OIG laptop computer that had been processed internally at
         NSF for repairs and a baseline operating system "image" was returned to the user containing
         pornographic picture files, suggesting mishandling and misconduct during the repairs.

                 We verified the presence of illicit material on the computer, and determined that, contrary to
         the recollections of staff, the computer that had been turned in for repairs was not the same computer
         returned to the user. The computer containing the picture files had been previously used by another
         staff member while on travel during an investigation. The picture files and other information, which
         were legitimate investigative materials in the matter, had been loaded onto the computer for
         temporary use, but never deleted when the computer was returned to the IT inventory. The user
         received this computer (identical in appearance to her original computer, except for NSF barcode and
         serial number) instead of the one she originally turned in for service.

                The computer turned in by the user for repairs, having not been returned to the user, became
         available for other staff use following the repairs, and was issued as a routine matter to another user.
         Thus, our investigation revealed deficiencies in equipment handling and accountability, but no
         misconduct.

                   Accordingly, this case is closed with no further action taken.




NSF OIG Form 2 (11/02)
